<html>
<title> - CYBERSECURITY: NETWORK THREATS AND POLICY CHALLENGES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
          CYBERSECURITY: NETWORK THREATS AND POLICY CHALLENGES 

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2009

                               __________

                           Serial No. 111-35


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

72-884 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




                    COMMITTEE ON ENERGY AND COMMERCE

                     HENRY A. WAXMAN, California
                                Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
  Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont    

      Subcommittee on Communications, Technology, and the Internet

                         RICK BOUCHER, Virginia
                                 Chairman
EDWARD J. MARKEY, Massachusetts      FRED UPTON, Michigan
BART GORDON, Tennessee                 Ranking Member
BOBBY L. RUSH, Illinois              J. DENNIS HASTERT, Illinois
ANNA G. ESHOO, California            CLIFF STEARNS, Florida
BART STUPAK, Michigan                NATHAN DEAL, Georgia
DIANA DeGETTE, Colorado              BARBARA CUBIN, Wyoming
MICHAEL F. DOYLE, Pennsylvania       JOHN SHIMKUS, Illinois
JAY INSLEE, Washington               HEATHER WILSON, New Mexico
ANTHONY D. WEINER, New York          CHARLES W. ``CHIP'' PICKERING, 
G.K. BUTTERFIELD, North Carolina         Mississippi
CHARLIE MELANCON, Louisiana          VITO FOSELLA, New York
BARON P. HILL, Indiana               GEORGE RADANOVICH, California
DORIS O. MATSUI, California          MARY BONO MACK, California
DONNA M. CHRISTENSEN, Virgin         GREG WALDEN, Oregon
  Islands                            LEE TERRY, Nebraska
KATHY CASTOR, Florida                MIKE FERGUSON, New Jersey
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
PETER WELCH, Vermont
JOHN D. DINGELL, Michigan (ex 
    officio)



                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Anthony D. Weiner, a Representative in Congress from the 
  State of New York, opening statement...........................

                               Witnesses

Dan Kaminsky, Director of Penetration Testing, IOActive..........
    Prepared statement...........................................
Rodney L. Joffe, Senior Vice President and Senior Technologist, 
  NeuStar........................................................
    Prepared statement...........................................
Larry Clinton, President and CEO, Internet Security Alliance.....
    Prepared statement...........................................
Greg Nojeim, Senior Counsel, Center for Democracy and Technology.
    Prepared statement...........................................


          CYBERSECURITY: NETWORK THREATS AND POLICY CHALLENGES

                              ----------                              


                          FRIDAY, MAY 1, 2009

              House of Representatives,    
Subcommittee on Communications, Technology,
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:04 p.m., in 
Room 2123, Rayburn House Office Building, Hon. Anthony D. 
Weiner presiding.
    Present: Representative Weiner.
    Staff Present: Amy Levine, Senior Counsel; Greg Guice, 
Counsel; Sarah Fisher, Special Assistant; Amy Bender, Minority 
Counsel; Neil Fried, Minority Senior Counsel; and Sam Costello, 
Minority Assistant.

 OPENING STATEMENT OF HON. ANTHONY D. WEINER, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mr. Weiner. Welcome to the hearing of the Energy and 
Commerce Subcommittee on Communications, Technology, and the 
Internet.
    I welcome the witnesses.
    Since April 17th, President Obama has had on his desk 
recommendations of a panel that has been studying cybersecurity 
policies and structures of our government. Already we have 
heard a push and pull going on behind the scenes and 
increasingly in public about some of the thorniest questions 
that that panel will consider.
    Today we will offer some advice.
    This committee will have the jurisdiction to implement the 
policies that are recommended by the President, and 
notwithstanding the activities in some other committees, which 
we welcome, the jurisdiction for these matters will be here in 
the Telecommunications Subcommittee and in the Energy and 
Commerce Committee.
    We will hear from a brilliant set of witnesses, but we will 
not hear from someone from the administration for some reasons 
obvious and some reasons not so. The obvious is I don't think 
they know what their policies will be. So asking them to 
testify on them might be premature. But also we wanted to, by 
design, to have a conversation here among interested parties in 
the community that would allow us to inform our reactions to 
the administration's proposals that will be forthcoming.
    In fact, cybersecurity is not a singular problem. It is at 
least three. There are, of course, the issues of personal 
security, issues of spam and nuisance, but also identity theft 
and the like. This is also an issue of critical infrastructure 
and protecting it, the economic security of our country and, 
frankly, the increasingly interconnected economies of all of 
the countries of the world.
    And of course, this is a national security issue. An issue 
that has been seemingly increasingly brought to the public's 
attention with stories that fill up the newspapers on 
everything from fighter jet plans being stolen to Chinese-based 
spying on Tibet and some of the other countries. We have heard 
just about a story a day.
    We will endeavor to ask and answer some of the big 
questions that the President is going to be wrestling with. How 
do we respond to or mitigate or work around or generally 
respond to the inherent paradox that is the Internet? Its 
openness, its openness to innovation, its openness to 
democratization; but also its openness to mischief and mischief 
makers and often things worse than mischief.
    For the most part, Congress has been wise in resisting the 
temptation for heavy-handed intervention, and that has served 
the Internet well and has served our country well.
    We also have to ask the question that has been dominating 
the discussions at the White House. Who should be in charge of 
combating the mischief maker, the con artists or the 
terrorists; not only what agency of government but whether or 
not it should be government at all, and if so, what 
relationship between government and the private sector? With 
government, of course, you often get the inevitable heavy-
handedness and secrecy, but you do get strong centralized 
action when it is needed. With the private sector you get 
entrepreneurship, creativity but you also get silos of self-
interest that don't always make for vigorous system-wide 
defense.
    One thing is sure. This cancer can't be exorcised with a 
rusty axe; we need to use a scalpel.
    Third, we have to ask the questions, are we destined to 
constantly fight the last war when it comes to cybersecurity? 
Is the cycle of discovery, warning, insulation inevitable?
    Conficker gave us an interesting and good example of this. 
Tiffany and my staff put together a timeline of the Conficker 
virus, and here is what she wrote.
    On December 29, 2008 Conficker.B is first detected; 
Conficker.A updates itself to Conficker.B.
    February 20, 2009, Conficker.C is discovered; Conficker.B 
updates itself to Conficker.C.
    March 4th, Conficker.D is discovered; Conficker.C updates 
itself to Conficker.D.
    April 7, 2009, Conficker.E is discovered; Conficker.D 
updates itself to Conficker.E.
    Conficker.E downloads scareware and spyware onto computers. 
It deletes automatic updates of computer systems and prompts a 
fake need to update one's computer. And when individuals buy 
the software protection Conficker.E offers, the computer 
downloads spyware onto the computer. This is a dynamic that 
clearly does not lend itself very well to discovering the 
problem, addressing the problem, moving on to the next problem.
    Maybe cat and mouse is our only option. Maybe, though, we 
don't need a military-type approach but more an approach that 
we in government use at say NIH or the Food and Drug 
Administration, where government helps to augment creative 
solutions, help with some of the R&D, and then let the private 
sector go off and implement them.
    And then, of course, there are the more provocative 
questions that we might not have time to touch on today, such 
as John Markoff in the New York Times asking the question, do 
we need a new Internet all together? Or the provocative title 
of Jonathan Zittrain's great book, "The Future of the Internet 
and How to Stop It."
    The witnesses we have before us will offer us an 
opportunity to answer some but not all of these questions. This 
is a conversation that inevitably has to take place not only 
here in Congress but in the businesses around the Internet and 
in the coffee shops and parlors of people's personal 
experiences and, of course, over at the White House.
    Now it is my honor to introduce the witnesses we have 
before us today.

 STATEMENTS OF DAN KAMINSKY, DIRECTOR OF PENETRATION TESTING, 
  IOACTIVE; RODNEY L. JOFFE, SENIOR VICE PRESIDENT AND SENIOR 
   TECHNOLOGIST, NEUSTAR; LARRY CLINTON, PRESIDENT AND CEO, 
 INTERNET SECURITY ALLIANCE; AND GREG NOJEIM, SENIOR COUNSEL, 
              CENTER FOR DEMOCRACY AND TECHNOLOGY

    Mr. Weiner. Dan Kaminsky is the director of penetration 
testing at IOActive, where he focuses on design capabilities 
and vulnerabilities of network protocols. He is probably most 
famous for having discovered a fundamental flaw in the Domain 
Name System or DNS that would allow him to reassign Web 
addresses, take over banking sites, or disrupt the flow of data 
over the Internet. Thankfully, he was a good hacker and brought 
this flaw to the attention of those entities that were in a 
position to fix it.
    Dan Kaminsky, you are our first witness.
    You are recognized for 5 minutes. I know you have presented 
some testimony already, so feel free to summarize as you see as 
appropriate.

                   STATEMENT OF DAN KAMINSKY

    Mr. Kaminsky. Thank you very much. Hello, everyone. Members 
of the subcommittee, please allow me to express my appreciation 
for offering me this opportunity to testify today.
    I am, as said, the director of penetration testing at 
IOActive. I spent the last 10 years of my career working for 
Fortune 500 companies, including Cisco, Avaya, and Microsoft to 
help secure their systems.
    It was an interesting experience fixing DNS, working with 
all the people that needed to be in a position to actually get 
the fix out, get the fix deployed and ultimately protect the 
ecosystem. It was an example of a public-private partnership. 
We worked with USCERT in order to get communication out to the 
Federal agencies that themselves had to get software out. And 
it was a remarkable, remarkable experience for all parties. It 
was a highlight of 2008; 2008 was not, however, an easy year.
    Verizon business actually every year puts out a report 
called the Data Breach Investigation Report. In an industry 
that always struggles to have good data to work with, Verizon 
actually did a wonderful thing and has for the last few years 
in summarizing what they see in their limited sample of their 
customers base. And what they saw was astonishing. Over 285 
million records were compromised last year, just from their 
customer base. According to Verizon, this is more than every 
other year they had seen combined. Worse, over 91 percent of 
those compromised records, most of which were payment card 
information, over 91 percent of those were traced going back to 
organized crime.
    We have worldwide problems, and we live in a much more 
dangerous world than when I first started doing computer 
security years ago. The reality is, hacking is no longer about 
kids. It is about people with kids who would like to feed them. 
Attackers have had years to figure out the absolute best ways 
that they can monetize their access. Recently, they actually 
managed to coordinate a widespread attack against the ATM 
infrastructure in which, in 49 cities, $9 million was extracted 
from ATMs using purloined ATM data.
    Beyond that, extortion, something we have almost no 
information on, is rumored to be becoming an extraordinary 
problem not merely hitting the sides or gambling or pornography 
aspects of the economy but actually standard businesses.
    As you mentioned, Conficker. Conficker, it turns out, was a 
remarkable success. If Conficker had come out in 2003, pretty 
much every single computer on the Internet, at least every 
Windows machine, would have been compromised. Since 2003, 
Windows has become a much, much more secure platform. The 
actual result of the work from 2003 was probably over 99 
percent of the machines that otherwise would have been 
affected, infected by Conficker never had a problem. That is 
what happened when we--that is the result of our scans and our 
monitoring of the situation.
    That being said, a percentage of a large number is still a 
large number, and we have had to deal with millions and 
millions of machines infected. What was most scary about 
Conficker is, thus far, we still have no idea what the authors 
of it want.
    So where do most of these compromises come from? How is 
this happening? A lot of problems are in software. This is 
true. There is a lot of buggy software out there. But according 
to the Verizon business report, over 60 percent of actual 
penetrations that led to loss of data did not come from buggy 
code; they came from our simple inability to strongly 
authenticate other nodes on the Internet, default passwords, 
lack of passwords, lack of insufficiently strong passwords. It 
turns out authentication is in huge amounts of trouble on the 
Internet today, and the data suggests it is leading directly to 
compromises of personal information.
    Now people may say, why are we still using passwords? Why 
is this problem still there? It turns out it is because it is 
the only way to reasonably make things work at all. It turns 
out, if something doesn't work, people won't use it, even if it 
is theoretically more secure.
    This is ultimately why I become a supporter of the 
technology known as DNSSEC. DNSSEC on its face is a method to 
fix DNS, but it is not just that. DNSSEC ultimately allows us 
to use DNS's power for allowing communication across 
organizational lines, ultimately trust across organizational 
lines, and allows us to apply cryptographic strength to that 
trust so it can be used not just for existing systems or not 
just for locating systems but for actually authenticating them 
and ultimately authenticating the people on the other side. It 
will take some work. It will take a lot of work, but I see it 
as the key towards making a new security authenticating 
ecosystem.
    Thank you.
    [The prepared statement of Mr. Kaminsky follows:]******** 
INSERT 1-1 ********
    Mr. Weiner. Thank you.
    Our next witness is Rodney Joffe. He is the senior vice 
president and senior technologist for NeuStar. He is a renowned 
expert on security flaws in the Internet. He also participated 
in the Department of Homeland Security's Cyber Storm II, a 
multinational cybersecurity exercise that examines security 
preparedness and response capabilities across a variety of 
infrastructures.
    Mr. Joffe, you are recognized for 5 minutes.

                  STATEMENT OF RODNEY L. JOFFE

    Mr. Joffe. Good afternoon, Chairman Weiner.
    I am, as you say, the senior vice president, senior 
technologist for NeuStar.
    NeuStar provides innovative services that enable trusted 
communication across networks, applications, enterprises around 
the world. A major portion of that is involvement with 
directories. I joined NeuStar in 2006 when UltraDNS, which is a 
company I founded, was acquired by NeuStar.
    DNS is the core directory that really routes traffic on the 
Internet. Every one of us uses it all the time. Any computing 
machine makes use of DNS. The technology itself basically deals 
with the fact that, as humans, we recognize and we are able to 
use words. Computers understand numbers, in this particular 
case, IP addresses, and they require the IP addresses to be 
able to move traffic or to be able to get you from one site to 
another. The DNS, simply put, is the directory that converts 
names to numbers and vice versa.
    So, for example, if I want to go to www.house.gov, I put 
that into an Internet browser, and the DNS would convert that 
to the IP address, 204.141.87.18, and the computing device is 
then able to get you to the House server, and the screen 
appears on your computer.
    So NeuStar also provides the core directory service for the 
.biz and the .us top level domains, as well as 17 other top 
level domains, including a number of other country codes. So, 
for example, we provide the service for Canada, .ca; for the 
United Kingdom; and for Japan. We also provide the directory 
service for anyone attempting to reach many of the Fortune 500 
or the e2000 sites. So, in all, we serve about 4,000 
corporations and government departments around the world and 
about 15 million domain names.
    I really appreciate you inviting me to speak about the 
particular threats, and I appreciate the fact that the 
committee has actually taken an interest.
    Probably the oldest reason for Internet attacks is that of 
ego bragging. There are three real reasons. The perpetrators 
behind those kinds of attacks are generally young and immature, 
and they are intent on showing their prowess with computer 
programming with little or no regard for the damage that they 
cause in their attacks.
    The second and most common category is for financial gain. 
In this case, the attacks are committed by individuals as well 
as by organized gangs of criminals. They include large spam e-
mail that you have mentioned; the interception and illegal use 
of computer data, which you have also mentioned, most commonly 
bank data and credit card data, extortion schemes, which have 
been around for quite a while; and Distributed Denial of 
Service attacks. In DDOS or Distributed Denial of Service 
Attacks, botnets, which are large groups of thousands, hundreds 
of thousands, sometimes millions of machines all working 
together, that have been previously infected, will be used and 
rented by criminals in the underground. Not only for 
themselves, but they rent them out. It is a business. The 
criminal then commands the botnet to try and reach a specific 
site. The result is that a Web site, for example, is hit by 
millions of hackers at the same time in an attempt to overwhelm 
the site and take it down. Frequently, it is successful.
    An important thing to note here is that it would require 
fewer than 10,000 strategically located compromised machines 
with some reasonable knowledge to disable a sizable portion of 
the U.S. Internet. It doesn't take many machines.
    Generally though the botnets involve hundreds of thousands 
because the people who build these botnets have no real cost. 
They are using our resources, and botnets are built almost 
automatically. We have seen notes where kids go off to school, 
come back, and take a look at how many bots they have added to 
their botnet while they have been at school. We have actually 
seen discussion in the underground about that.
    Another lesson on the very dangerous kind of malicious 
behavior that exists in cyberspace which is known as DNS cache 
poisoning. This is something that Dan has discovered as you 
know, last year. Thanks to Dan, we are a lot safer than we 
were.
    But effectively what happens with DNS cash poisoning is 
that your ISP's caching service are poisoned. The DNS is 
pointed to a fake site. When you go to your bank, you end up at 
a Web site that looks just like your bank, but actually isn't. 
It belongs to criminals. And what they do is they ask you for 
your password, ask for your user ID, and then they go ahead and 
make use of that to make transfers and to empty your account.
    The third category we talk about is cyberterrorism, which 
really relates to generally nation-state issues. Over the last 
2 years, there have been at least three public attacks 
reportedly on nation-states. We know that one of them probably 
is, countries we all recognize Estonia, Georgia and Kyrgyzstan. 
Additionally, The Wall Street Journal reported on April 8th of 
this year, as you mentioned, critical infrastructure facilities 
had been compromised.
    It is really important to note over here that, while most 
people are unaware of the attacks, these attacks are going on 
all the time, and our industry is reasonably successful in 
being able to actually stop some of those attacks before they 
become public. But the attacks are occurring all of the time.
    On April 12th, talking about banking, most of this is 
theoretical, on April 12th, the DNS servers of a major 
Brazilian ISP, Virtua were compromised. Their cache was 
poisoned for the entry of one of the largest banks in Brazil, 
Bradesco, making use of the kinds of things that Dan had talked 
about. Users of that bank were redirected to a fake Web site, 
and it took about 5 hours before the bank and the ISP were able 
to realize that, in fact, the recent entry had been poisoned. 
The bank was reasonably open in their statement when they said, 
approximately 1 percent of our customers were affected by this. 
But that represents almost 150,000 individuals who could 
possibly have had their accounts compromised during one event. 
And this is an event in one country over the course of 5 hours.
    The other event is one that you have touched on already, 
and with indulgence, I will perhaps expand a bit more, which is 
on the Conficker botnet, the Conficker worm.
    We have an industry group called the Conficker Working 
Group, an unofficial group that came together in the private 
sector to deal with a real threat, an immediate threat of 
Conficker. They have been working around the clock to dismantle 
the botnet with no real success. On the 8th of April, as you 
said, it took the first steps with version E. You had mentioned 
earlier that it had upgraded from version D to version E. It 
wasn't just an upgrade. It was also the first time we got some 
insight into how the botnet was actually going to be used. It 
was used to sell fake antivirus. If you have seen those pop-ups 
on your computer screen, where it may say that you are 
infected, you normally expect that to show from your antivirus 
software. In fact, if you were infected with Conficker, there 
were no messages from your antivirus software. It was actually 
from the criminal group behind it. They then advertise some 
software that you could purchase online there and then, enter 
your credit card, your personal information and download their 
software. Of course, their software doesn't disable the virus. 
It installs more malicious software, and the job is now even 
more difficult.
    As a sobering side note on this, last month, in 
collaboration with one of the other members of the Conficker 
Working Group from Georgia Tech, we identified at least 300 
critical medical devices from a single manufacturer. We 
stumbled on it. It is not that easy to tell what it is. There 
were at least 300 medical devices that were infected with 
Conficker. The hospitals had no idea. The manufacturer had no 
idea. When we called them, they were obviously shocked. These 
devices are used in hospitals to allow doctors to view high-
intensity scans, MRI for example, CT scans. And they are often 
found in ICU facilities. They are connected to local area 
networks. They should never, ever have been connected to the 
Internet, and according to the manufacturers, they weren't. 
However, they were connected at some stage to the Internet 
because they were infected, and they were checking in with us.
    The way we know they are infected is that we run systems 
that those devices will connect to. Worse, after we had 
notified the manufacturer and the hospitals involved, and we 
are obviously doing our best for hospitals around the world, we 
were told that, because of FDA rules that they referred to as 
510(k) regulations, 90 days notice was required before the 
systems could be modified to remove the infections and the 
vulnerabilities. In some cases, clearly, there can be a 
disconnect between government rules which are meant to protect 
consumers and today's cyber threats which sometimes result in 
delaying and hindering the ability to fix problems as in the 
medical system.
    So based on my long experience in operating large networks 
connected to the Internet, I think one of the most important 
areas for Congress to concentrate on is improving the 
communication both between the public and the private sectors 
and across those sectors. The Department of Homeland Security 
operates USCERT, which is part of its mission to act as a 
liaison between public and private sectors. It is a start, in 
my view, but it is woefully understaffed, and it is woefully 
underfunded for the enormous task that is put before it. 
Ideally, I would like to see much more focussed collaboration, 
as that Dan had mentioned and I assume that you have heard 
before.
    In summary, we face enormous escalating threats from all 
parts of cyberspace both to the economy and to the safety and 
well-being of many citizens. So, beyond the normal perennial 
call for additional resources, we need to concentrate on 
improving the collaboration between industry and government; 
between different government departments; and between the U.S. 
and foreign governments.
    Mr. Chairman, thank you for the opportunity to address you 
and the rest of the committee, and I am happy to answer any 
questions.
    [The prepared statement of Mr. Joffe follows:]******** 
INSERT 1-2 ********
    Mr. Weiner. Thank you, Mr. Joffe.
    Our next witness is Larry Clinton. He is the president and 
CEO of the Internet Security Alliance, an organization that 
represents corporate security interest and provides a forum for 
information sharing on information-security issues. Mr. Clinton 
is also a member of the GAO's expert panel which will make 
recommendations to the Obama administration on cybersecurity.
    Mr. Clinton, welcome. You are recognized for 5 minutes.

                   STATEMENT OF LARRY CLINTON

    Mr. Clinton. Thank you, Mr. Chairman, and thank you for 
inviting us to have this hearing, and we are delighted to 
participate.
    Mr. Chairman, virtually our entire economy, our defense 
system, our culture, now depend on electronic communication 
systems that are extremely vulnerable and under constant 
attack. The vast majority of these systems are owned and 
operated by the private sector.
    Unfortunately, virtually all the economic incentives 
regarding cybersecurity favor the attackers. Attacks are 
relatively cheap. The area to defend is virtually limitless. 
Defense residing in separate although connected systems is 
difficult to coordinate and expensive compared to the return on 
investment.
    The good news is that we know a great deal about how to 
prevent and stop these attacks. The bad news is, we are just 
not doing it. The PricewaterhouseCooper's Global Information 
Security Study of over 1,000 companies found that those that 
followed the industry best practices could prevent, almost 
entirely mitigate the attacks against them. The 2008 Data 
Breach Investigations Report previously referred to studied 
more than 500 forensic engagements over a 4-year period and 
concluded that 87 percent of the breaches could have been 
avoided if reasonable and identifiable security practices had 
been followed. Robert Bigman, chief of information assurance 
for the CIA, has stated publicly that most of the attacks that 
he sees are not that sophisticated, and 80 to 90 percent of 
them could be prevented with due diligence.
    However, we cannot solve cybersecurity problems by 
attempting to adapt 19th Century models to a 21st Century 
problem. A common theme from some policymakers who are 
relatively new to the cybersecurity problem tend to say, well 
if industry won't do this on their own, we will just have to 
regulate them. The Internet Security Alliance believes that 
such an approach is short-sighted and does not reflect the 
necessary understanding of the new breed of technologies 
created by the Internet to begin with. Federal regulatory 
mandates are best designed to combat corporate malfeasance, and 
that is not the problem we are facing with Internet security.
    Even if Congress would enact an enlightened statute, it 
would only have reach to our national borders, and this is an 
international problem. A set of U.S. regulations would place 
U.S. industry at a competitive disadvantage in the global 
marketplace at the time when we can least afford it.
    Specific regulations would likely be too static to the 
technology, and the threat vectors constantly change; while 
flexible or conceptual regulations may be too general to have 
any real effect. Regulations are often subject to political 
pressure, making minimum standards de facto ceilings, something 
like what we have with campaign finance.
    We need a better system, a 21st Century system. 
Fortunately, there are signs that the Obama administration 
understands the need for a modern approach to cybersecurity 
that appreciates the economic issues as much as the technical 
ones. President Obama assigned Melissa Hathaway of the National 
Security Council to conduct a review of our Nation's 
cybersecurity status. Although the report has not been made 
fully public, Ms. Hathaway did provide a preview a week ago in 
Silicon Valley.
    Among the specifics from the report she did share was 
acceptance of the principle that, quote, previous attempts to 
deal with cybersecurity in isolation have failed in no small 
part because cybersecurity only succeeds in the context of 
broader economic progress. In particular, Ms. Hathaway 
specifically cited the need for government to work with the 
private sector to, quote, improve market incentives. This is a 
significant departure from the previous administration's view, 
which was that the market would emerge spontaneously to address 
these problems. That did not happen.
    Ms. Hathaway is correct. We need to improve market 
incentives. Consistent with this view, the Internet Security 
Alliance asks Congress to consider enacting what we call the 
Cyber Safety Act. The Cyber Safety Act is an affirmative and 
contemporary approach to dealing with the 21st Century problems 
of cybersecurity. In brief, we suggest that government's role 
is not to prescribe mandatory regulation but rather provide 
market incentives for the private sector entities to adopt the 
security practices and standards and technologies that have 
already been empirically demonstrated to work. There are a wide 
range of incentives which have already been used in various 
sectors of the economy, such as insurance, liability 
protections, procurement awards programs, SBA loans, et cetera. 
All these achieve government goals. What we are suggesting is 
that these should now be applied to cybersecurity.
    Government ought to designate a range of public and private 
sector entities which can serve as a qualifying set for 
standards and practices. Government ought to then fund research 
used to evaluate the standards, practices and technologies 
developed on an ongoing basis with the sole criteria being 
their effectiveness. Private sector entities that can 
demonstrate compliance with the standards and practices would 
be deemed effective and would qualify for the incentives. What 
we are attempting to do here through the Cyber Safety Act is to 
change the economics of cybersecurity by constructing a market 
that makes private organizations want to continually invest in 
cybersecurity in their own economic self-interest. Only then 
can we create the sort of sustainable and evolving system of 
cybersecurity that we need.
    The purpose of this system is to defend the national 
security's interest, and thus it is worth the relatively modest 
investment that the government would have to make in order to 
provide the incentives. The present research and the expert 
testimony shows that by motivating the widespread adoption of 
the practices that have already been demonstrated to work, the 
vast majority of the problem we are experiencing can be quickly 
addressed.
    However, there is a small but critical 10 to 15 percent of 
attacks that will not be addressed in this fashion. My written 
statement goes into some detail on a number of these problems, 
including the supply chain, the incongruity with laws that were 
written in the 1980s to current technology, the need to change 
the basis for security from protecting the instruments like the 
computers to protecting the data itself. All of these will 
require a lot more work than what we are proposing with the 
Cyber Safety Act.
    We look forward to working with the committee both to 
address the 90 percent of the problem that is basically low-
hanging fruit as well as the 10 percent of the problem that is 
going to require substantially more work.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Clinton follows:]******** 
INSERT 1-3 ********
    Mr. Weiner. Thank you, Mr. Clinton.
    Our final panelist before we begin questions is Gregory 
Nojeim. He is the senior counsel and director of the Project on 
Freedom, Security and Technology at the Center for Democracy 
and Technology. He has been integral in bringing together broad 
coalitions from across the political spectrum to limit the 
threats to privacy and civil liberties posed by government 
monitoring of the Internet and other communications.
    Mr. Nojeim, you are recognized for 5 minutes.

                    STATEMENT OF GREG NOJEIM

    Mr. Nojeim. Thank you, Chairman Weiner.
    It is really a pleasure to testify today on behalf of CDT. 
Our organization is a nonprofit organization, and we are 
dedicated to keeping the Internet open, innovative and free.
    So it won't surprise you that most of my comments today 
will focus on the communications infrastructure as opposed to 
other infrastructure systems and, in particular, on the 
Internet.
    Cybersecurity policies should distinguish between 
government systems and systems that are owned and operated by 
the private sector. Policy toward government systems can be 
much more proscriptive. It can be much more top-down than 
policy toward private systems.
    Congress should also distinguish between the elements of 
the critical infrastructure operated by the private sector that 
primarily support free speech and those that do not. As an 
example, measures that might be appropriate for securing the 
control systems of a pipeline, they might not be right for 
securing the Internet. It might be wise, for example, to 
require a particular kind of authentication of a user of an 
information system that controls a pipeline. But it might not 
be wise to require that same kind of authentication for a 
computer user in the privacy of their own home while they are 
surfing the Internet.
    The characteristics that have made the Internet successful, 
openness, decentralization, user control, things that you 
mentioned in your opening statement, Mr. Chairman; these things 
can be put at risk if heavy-handed cybersecurity policies are 
applied to all critical infrastructure. This subcommittee 
should make protection of these attributes an essential part of 
its cybersecurity mission.
    It is also important to ensure that cybersecurity measures 
do not result in a governmental entity monitoring private 
communications networks for intrusions. Monitoring these 
systems is the job of private sector communications providers, 
and they already do this.
    The government can help them do a better job. It can help 
them develop tools that allow communications providers to 
monitor for intrusions in the least intrusive way. But it 
should not be in the business of monitoring private networks 
itself. Nor should the government be in the business of 
shutting down Internet traffic to compromised critical 
infrastructure information systems in the private sector.
    While some have proposed giving the President this 
extraordinary power over all critical infrastructures, we 
believe it should extend only to governmental systems. Such 
authority applied to private systems would empower a President 
to coerce unwise, even illegal activity. To our knowledge, no 
circumstance has yet arisen that would justify a Presidential 
Order to cut off Internet traffic to a private critical 
infrastructure system when the operators of that system think 
it should not be cut off.
    We also urge you to carefully address two overarching 
recurring cybersecurity policy problems. The first is excessive 
secrecy. The subcommittee should work to improve the 
transparency of the cybersecurity program. Transparency builds 
trust with the private sector, and that is essential to foster 
its cooperation. It also enhances public understanding of the 
nature and justification for any impact on users of 
cybersecurity measures. Transparency also promotes essential 
accountability.
    The second overarching problem is improving information 
sharing between the private sector and the government. Starting 
with the right questions about information sharing will help in 
settling on the right answers.
    Exactly what information held by the private sector has not 
been shared with the government when it was specifically 
requested? What reasons were given for the decision not to 
share? Why aren't existing information-sharing structures--I am 
sorry. Why are existing information-sharing structures like 
USCERT falling short? And what additional market incentives 
would encourage the private sector to share threat and 
information solutions? Generally, as you approach these and 
other cybersecurity problems, we urge you to favor market-based 
measures over mandates. And we ask that you consider carefully 
the impact on the Internet of measures proposed for securing 
all critical infrastructure systems. Thank you.
    [The prepared statement of Mr. Nojeim follows:]******** 
INSERT 1-4 ********
    Mr. Weiner. Thank you very much.
    I would like to begin the conversation looking at, first, 
in some, as much as we can do in English, some of how the big 
stories of the day have emerged. When we read in The Wall 
Street Journal and elsewhere that computer spies have breached 
a fighter jet project; when The New York Times reports that a 
vast spy system lutes computers in 103 countries, walk me 
through a little bit about, and while you can't answer with 
certitude, a little bit of how we suspect these things have 
happened and why it is that the cat is a few steps behind the 
mouse on these things.
    Mr. Kaminsky, you can start. You can choose either one of 
these. Walk me through about why this is more complicated than 
simply saying, let's just read some code, close some back doors 
and solve this problem.
    Mr. Kaminsky. I would say there tend to be two main ways 
that attackers seem to be getting in. There are more, but I 
will go with two. The first way is that the software that is 
exposed on the Web for remote access, remote management, remote 
just data collection, while operating systems themselves have 
gotten significantly more secure over the last few years, the 
actual software that is exposed that drives Web sites tends to 
be homegrown and very poorly audited.
    So a very common technique that attackers use is what is 
known as sequel injection, where they actually communicate with 
the Web front end and messages are sent to the database back 
end. And the messages, unfortunately, are insufficiently 
sanitized or cleaned, and the database is caused to run 
arbitrary attacker software. That is the most common 
implementation flaw.
    The other method is what I referred to earlier in my talk 
where I was talking about authentication techniques. According 
to the Verizon business report, 4 out of 10 of the times when 
they saw an actual compromise occur, they actually found that 
there was remote management--remote management there 
specifically for third parties, for third-party vendors, using 
passwords that were either known or could be easily guessed. So 
we don't have the exact details, or at least I certainly do not 
have the exact details on how the joint strike fighter data was 
lost. But in terms of what was lost from server side, you will 
see either compromises on the Web site or compromises on remote 
management through default passwords.
    One third case which should be brought up is that we do 
have issues with actual desktops and browsers themselves, where 
an individual desktop inside of an organization will be 
compromised through the Web browser through what is called a 
drive-by download, and that drive-by download will cause that 
individual host to be a jumping-off point for an attacker to 
then attack other assets within the organization.
    Mr. Weiner. So that then leads us to Mr. Clinton's 
testimony that if you know these things, and these things 
thankfully keep you in business, Mr. Kaminsky, does the panel 
agree--maybe Mr. Kaminsky, you want to expand upon this--but if 
an overwhelming number of the attacks happen in a certain 
prescribed way and that if there are certain steps you can take 
to protect yourself, and I think Mr. Clinton's testimony was 80 
to 90 percent if you follow certain protocols; is this a 
problem people have, people being sloppy and what we are 
looking at is we figuring out ways to make them less sloppy?
    Mr. Clinton, is that a fair summary of at least that 
portion of your testimony?
    Mr. Clinton. Thank you, Mr. Chairman.
    In part. I wouldn't say that it is necessarily people being 
sloppy, but there is some sloppiness involved. I would go up a 
level.
    First of all, I would never dream of getting into a 
technical discussion with my colleague on the right. I will 
just accept everything he says as true.
    I would operate at a different level. He can tell you in 
great detail why a particular attack happened. But once we have 
plugged that hole, the attackers are going to move to another 
hole. So while we can, you know, patch various holes in the 
Internet, they are going to continue to find new holes.
    What we have to do, in our opinion, is change the system. 
We have to change the economics of it. The reason we don't have 
all of these things patched in the first place is because users 
don't like security. It makes it harder to use, costs money; 
businesses the don't like it. What we have to do is change the 
system, so that instead of people trying to view cybersecurity 
as a cost center or a bother, they have got to view it as 
something they want to do so that we can change the economic 
dynamics of it. And that is what we are arguing for.
    So it is certainly true that if we had the right 
incentives, people could fairly, quickly, and easily, according 
to the research and the CIA, could reasonably mitigate enormous 
percentages. I am not sure if it really is 90 percent, but that 
is what several studies say. If it was 80 percent, it would be 
an enormous advantage. And we would have to do this on a 
continuing basis. Once we put up a system of--once we 
implemented all the best practices that the Verizon study 
suggests and we were able to stop this 80 percent, we would 
have to continue to work on that system because the attackers 
are going to say, okay, they have plugged all those holes; we 
are going to go after some others. So we have to do this on an 
ongoing basis, so the system has to continually grow because 
the system continually grows and changes.
    Mr. Weiner. Doesn't this face the conflict, then, that it 
is in Google's interest to patch things that attack Google. It 
is in Verizon's interest, notwithstanding this industry-wide 
report, to attack things that attack Verizon?
    Mr. Clinton. Right.
    Mr. Weiner. Where does the system-added conversation 
happen?
    Mr. Nojeim raises concerns about we the government entering 
into that field, but where should that conversation happen 
where someone is thinking about the system-wide protection? 
What is the recommendation of the witnesses on that?
    Mr. Kaminsky.
    Mr. Kaminsky. Too much of this discussion happens in the 
context of, how can we apply more pressure to people? How can 
we push them? How can we force them, or at least in the nicest 
way, how can we incentivize them? I don't think enough of the 
discussion happens around, how can we reduce the cost of 
delivering a secure solution? Users don't like security because 
security is too expensive and too difficult to deploy. Some of 
the most expensive failed information-technology projects in 
the world, we are talking in the $100 million scale and up, 
have been in systems that have attempted to do 
cryptographically asserted authentication.
    A major role that government can play here is in giving all 
companies, giving Google, giving Verizon, giving Microsoft, 
giving us all one shared base that we can start building trust 
on. The Department of Commerce is doing an enormous amount of 
painful and thankless work to get DNSSEC to be something that 
can actually work with a central root of trust. The advantage 
to this is not just that we fix DNS. It is that we take so much 
of security technology, which has been a lot of promise and not 
as much user-opting-in as we might like, to make this stuff 
inexpensive enough so that it is actually something that can be 
deployed. People want security, but they want their systems to 
work after, and they don't want their costs to explode. DNSSEC 
can help that.
    Mr. Clinton. If I could just quickly, Mr. Chairman. And I 
would agree with what he said, but to get to your broader issue 
of, how do we get everybody to do this, it is because everybody 
has got to see some sort of benefit to doing it. I mean, the 
problem that we have is, this is a joint system, and the 
vulnerability is distributed. And they may be trying to get 
to--China, for example, may be trying to get to the Pentagon. 
They don't attack the Pentagon directly. They don't even attack 
Raytheon, that is linked to the Pentagon. They attack 
Raytheon's subcontractor, and by getting to Raytheon's 
subcontractor, they get to Raytheon, and through that they get 
to--so we have to get out to that subcontractor. And the 
subcontractor in the current system says, well--the Pentagon 
says, we will give a contract to Raytheon, and they will 
enhance their security, which they do. They have very good 
security. And we will tell them to enforce it on the 
subcontractor. So Raytheon attempts to do that. So the 
subcontractor says, I am sorry, it is just not worth it for me. 
I don't want the business. I mean, this is like 5 percent of my 
business. I am not going to change over my entire information 
security system. They walk away from the business, which is bad 
from everybody's point of view. What we are advocating is, we 
need to have an incentive in place, a small business loan, an 
insurance benefit, something--there are lots of them--so that 
the subcontractor now wants to keep his or her security 
completely up to date. So that we have an incentive for 
Raytheon that is a procurement contract; we have an incentive 
for the subcontractor, maybe you know, the ability to get an 
SBA loan or a lower insurance rate, and so that everybody has--
we need a system-wide set of incentives, and the incentives are 
going to be different for different people. This is not a one-
size-fits-all world. We have to stop thinking of it that way. 
We need a network of incentives to address a network security 
issue.
    Mr. Weiner. It is puzzling, though, it is puzzling though 
that we need to offer incentives for a government contractor of 
Raytheon to do what is intuitive, which is to not share 
terabytes of information on the Internet with hackers. I am not 
quite sure that the--I mean, it strikes me that this gets back 
to the question and answer; how do you make sure that the silos 
of security extend--I mean are systematic?
    Mr. Joffe.
    Mr. Joffe. Thank you, Mr. Chairman.
    There are a couple of fundamental things to think about 
here. We talk about incentives. There are some fundamental 
issues. When it comes to incentives, one of the key things that 
I find when I talk to large corporations that have issues is, 
they say, well, what is in it for me? And that is really the 
thing that should drive the incentives. The incentives will be 
different, but as long as you can show someone what is in it 
for them.
    One of the problems we have now is that there are--the 
issues could affect so many parts of the world and so many 
parts of the commercial world that people say, why would I step 
up and fix my part of the problem if other people aren't fixing 
their part of the problem? Someone else will do it. It seems to 
be a driving theme in most of the meetings I end up having.
    And until I can point out how it affects someone 
specifically, they really say, not our problem. People don't 
think about it as being their problem.
    The second thing is that the bad guys are as good as we 
are. One of the problems that we are facing and doesn't seem to 
be sort of dealt with much is that the people behind most of 
these attacks are as good as we are if not better. For some 
other reason, it almost seems like the bad guys are us. The 
level of sophistication, the things that we see, for example, 
in Conficker using, you know, certainly state-of-the-art and 
best-of-breed techniques.
    If I was a university professor, grading something like 
Conficker.E, it would have a very, very high grade. They have 
done everything right. We don't seem to be able to do it. Maybe 
it is because you go to the typical large government 
contractor, and there are 50,000 or 60,000 people who are 
involved with software development in some way. It seems to be 
very difficult for us to be able to control that, and there 
doesn't seem to be enough of an incentive overall for the 
companies to take a holistic approach until you see the front 
page of the Wall Street Journal. Then, all of a sudden, 
everyone wakes up.
    Finally, there are two different ways that this happens. 
One of the ways--and I don't know--obviously, I know nothing 
about the Joint Strike Fighter issue. But in many cases, this 
is determined breaches by humans where someone works away at 
finding the problem. They have all the time in the world. They 
have a lot of patience, and they work their way through 
breaking into a system, including using social engineering. A 
lot of things that have been found have been as a result of 
social engineering. The issue with USB drives, for example, 
which not only was an issue for the Federal Government but is 
an issue with Conficker. One of the major reinfection vectors 
we see now is people cleaning their machines off, but before 
they do that, they copy their key documents onto a USB dongle. 
Clean the system, rebuild it, go through all the effort and 
plug the dongle back in, in order to copy their key documents 
across, and they are getting reinfected. That is what we are 
seeing with Conficker.
    The first way is human breach. The second way is, a lot of 
the attacks aren't as a result of conscious attacks. You get 
something like Conficker or Torpig or one of the large botnets. 
They go out there and become like vacuum cleaners. They do 
their work in an automated process. We don't even know in many 
cases how systems got infected because they theoretically 
aren't connected to the Internet. The mystery behind the 
botnet, what they are able to do is sit and look at the net 
result of the vacuum cleaner.
    If you think about this, there are over 4 million machines 
currently infected, we think, with Conficker. We don't know 
where many of them are. We see a lot of them checking but not 
all of them. If someone behind that botnet wanted to, all they 
would have to do is perhaps use it as a giant search engine, 
basically say, show me any document or give me anything that 
has somewhere on the hard drive the word "nuclear," the word 
"blueprint," the word "trigger"; come back and find it for me. 
And all they have to do is sit back and wait. And over the 
course of a short period of time, those 4 million machines will 
look at their local drives and because, as we now know, many of 
them are actually sitting behind corporate firewalls, they will 
then examine all of the shared drives.
    They are basically no different than the human sitting 
behind the computer that is infected. They will look at all the 
shared drives and examine all of the documents looking for that 
word. Very little work. Somewhere or other, out of maybe a 
token Congress IP address that maybe is even connected to a 
home modem, they will find the right set of documents, absorb 
those, send them back to the miscreant. And before we know it, 
you have the front page of the Wall Street Journal.
    Mr. Weiner. Mr. Nojeim.
    Mr. Nojeim. Just a couple of thoughts on this. One is that 
the bad guys in the fighter jet incident didn't get the best 
information. They didn't get the most sensitive information. 
That was on a separate system. And maybe one answer is that, at 
the time of procurement, the government better describes what 
has to be on a separate system that is not connected to the 
Internet. Procurement can be a very powerful tool in your war 
chest, if you will, for dealing with this problem.
    Another thing to think about is that Raytheon is probably 
protecting its systems in the way that it thinks is most 
appropriate. It has got people whose job is to do that, and 
they are acting in the way they think is best. If the 
government believes that they should be acting in a different 
way, that additional security measures should be in place, then 
it should be up to the government to pay for those additional 
measures and the compensation could be through credits, could 
be through tax credits, or it could also be through a 
procurement provision so that you get extra money if you take 
extra steps.
    Raytheon may not have protected that subsidiary in the same 
way that it protected other more sensitive systems. If that 
subsidiary needs to be protected, then maybe Raytheon doesn't 
get the contract. And if it does get the contract, maybe the 
contract also pays for such protections.
    Mr. Weiner. Well, let me use that as a jumping-off point to 
some of the other threats; that some have been realized, some 
have been unrealized. Can you talk a little bit about the 
danger of expanding the use of smart metering on our electric 
grid and the vulnerability that it extends to the notion that 
our electric grid might be vulnerable. Some of our colleagues 
on the Energy and Commerce Committee talk about empowering FERC 
to regulate these things further. Let's think about, not the 
challenges of the past, but let's think about some of the 
things that we might be vulnerable to.
    The electric grid, as I understand it, by and large is not 
susceptible to a wide-scale attack because it is by and large 
not attached to the Internet in a large measure. Is it a source 
of concern to any members of the panel that our energy 
infrastructure might be susceptible to attack?
    Mr. Kaminsky.
    Mr. Kaminsky. There is an old joke from the NSA which is 
that all networks are connected; it is just a matter of how 
fast.
    The energy industry is, on the one hand, completely 
different than the rest of technology and, on the other hand, 
no different at all. The 1990s saw a tremendous increase in our 
use of personal computing technologies and information 
technologies to, quite frankly, make work more efficient. The 
energy industry has not been immune from that.
    One of the technologies that we have seen spreading, at 
least in recent design, has been an ability for the actual 
power meters to communicate with one another, for them to 
create a peer-to-peer mesh as one meter speaks to another meter 
speaks to another meter. This technology is being done by 
people who, frankly, have not had to deal with the last 10 
years of attacks. And on analysis, we have seen these meters 
actually able to be compromised remotely.
    Where we are today with the energy industry, which is there 
are a lot of information systems, there is a lot of 
communication going on, there is a lot of gear that has trouble 
dealing with attackers today, and the only thing preventing 
pretty widespread attack is a lack of connectivity. With 
connectivity growing more and more, that is a temporary solve. 
The future, the future of widespread meter-to-meter 
communication based on the evidence that I have seen thus far 
does have me concerned. I would like to see more security for 
those meters.
    Mr. Weiner. And are there steps that can be taken? Or is 
the technology of the smart grid too new to have best practices 
in this field?
    Mr. Kaminsky. I think we know how to make secure devices. I 
don't think that that is the problem. I think the problem is 
that the devices, as they have been made, have not been made 
with that knowledge. So this would be the sort of thing that 
certification and independent evaluation would improve. We know 
how to do it. It is just the devices that have been built thus 
far, when we actually test them, they tend to fall over.
    Mr. Weiner. Mr. Joffe.
    Mr. Joffe. Thank you, Mr. Chairman.
    One of the biggest problems that we face is that the 
Internet was never designed to do the things that it is doing 
today. There are control systems. There are systems that were 
never designed to be on the open Internet. But the open 
Internet, one of the great values is the fact that it allows 
you to communicate fairly cheaply and fairly easily with other 
computing devices.
    Traditionally we used point-to-point connections. There are 
home-monitoring devices for people who have medical conditions 
that traditionally made use of a dial-up line and a dial-up 
modem to communicate that to a doctor's office or a hospital. 
And people realized very rapidly that if you made use of the 
Internet, the existing cable connection or DSL connection, you 
could have much faster, much more reliable connectivity. So the 
devices were moved on to the open Internet without 
understanding from a design point of view that, at that point, 
the security requirements were different.
    The same thing is happening in the power industry. The 
power industry devices are being developed by not necessarily 
people who are in the power industry but people who are in the 
computing industry. So they develop devices and the device is 
then used by the power industry who are used to a closed 
network. But by its very nature, those home devices, the smart 
meters are going to have to rely on the open Internet. If they 
made use of the technology that the power industry was used to, 
which was point-to-point secured connections, or in fact the 
same techniques that existed in the phone industry, there 
wouldn't be an issue. But there is a disconnect between them. 
Perhaps it is an educational issue where you have the wrong 
groups of people getting the right training.
    As Dan had mentioned over there, we certainly know that 
security is an issue. But the people that build the devices, 
when they first design them, don't think about security first; 
they think about functionality first. And security is an 
afterthought, and it really shouldn't be. It should be embedded 
in the system.
    Mr. Weiner. Mr. Clinton.
    Mr. Clinton. I agree with Mr. Kaminsky and Mr. Joffe both 
with regard to the fact that we can build more secure devices, 
they will be more expensive. But the point I want to add is we 
also have to operate these systems better.
    The single biggest vulnerability that we have is not 
technical at all, it is the insider threat. Depending on which 
study you read, a third to half of the problems that we have 
are from people on the inside. These are people with keys to 
the technology. You can have the best technology in the world 
and the best security in the world, but if you just fired your 
IT guy, and he has put in a back door and he wants to come into 
your system, he will do it. That is 30 to 50 percent of the 
problems.
    So we not only need to have good technology, we need to 
have incentives for people to use the technology. Again, this 
is a systemwide problem. It involves technology and human 
resources. It involves the economy and legal compliance. It 
involves a variety of things. It is not going to be fixed when 
somebody comes up with a new device.
    Mr. Weiner. I want to talk about a couple more emerging 
threats, but before we do, I think we should touch on Conficker 
and what the state of play today is. It is exactly 1 month from 
April 1st, the day Conficker was supposed to bite. There have 
been some things that have happened since then.
    Who would be best to tell us what is the state of play with 
Conficker right now, whether it is still something people 
should be concerned about; and more troubling to a layman like 
myself, why is it that we literally have the code right there 
in front of us and it is such a vexing issue? What does it say? 
What is it doing? It seems to me there has to be at least 
someone who can read it, who is at least as smart as the guy 
who wrote it and say this thing is going to turn all microwaves 
on.
    Mr. Kaminsky, can you give us as best you can in English 
language, and I know how difficult it is when you are dealing 
with these technical matters, where does it stand? Are we going 
to get up to Conficker.P? Tell us whether we are learning 
anything. Just give us a an update on where we are with that.
    Mr. Kaminsky. Not a problem.
    So it used to be that if someone wrote malicious software, 
they wrote it, it was out there. You could analyze it and tear 
it apart and figure out exactly what it is and what it is going 
to do. That is how things used to be.
    The new generation of attacks are not about it does what it 
does, and it can't do anything more. The new generation of 
attacks, as Mr. Joffe said, are all very much about go back to 
the attacker and find out what would you like? Would you like 
me to search for documents? Would you like me to search for 
updates? Would you like me to do anything you can possibly 
imagine?
    That is what has made things difficult. Conficker is quite 
possibly the single most analyzed piece of software in the last 
10 years; but we can't tell you everything it is going to do 
because we don't know because the attackers have not issued the 
commands or have not released the actual software in a general 
sense. It always goes and retrieves updates.
    What made Conficker special, and what continues to make it 
special, is that it is actively being maintained and actively 
defending against the security community's effort. That does 
not mean that the security community has been lost and unable 
to do anything about it. We have had entire months of 
restricting Conficker's ability to update itself and manage 
itself. Through the public-private partnership of the Conficker 
Working Group, Conficker.B's entire update strategy was pretty 
tightly constrained. That is what ended up leading to their 
need to do an April 1 date. On April 1 they moved from the 
defenses that were successful in February and March to what we 
were unable to defend against in April. Technical terms: They 
moved from using 250 domain names a day, which we could 
register, to 50,000 domain names a day, which would be too 
difficult to block.
    The state of play as it is today is we have very, very good 
tools for quickly scanning networks, identifying where 
Conficker is so that it can be quickly cleaned.
    In order to actually get rid of Conficker, it was never, at 
least in my perspective, about how do we pressure people into 
doing it, because pressure will only go so far. It was how do 
we make it less expensive, less difficult, less time-intensive 
to actually find this on networks.
    Since a little bit before April 1, we have had fantastic 
tools for sweeping networks to find this. Now it just is a 
matter of people running those tools and cleaning it off their 
networks. There are still a few million nodes, but it is going 
down every day.
    Mr. Weiner. You said that Conficker had the ability to go 
from 250 to 50,000 with an order. Can it keep ahead of you, or 
are you closing more doors than it is opening as it goes day by 
day?
    Mr. Kaminsky. I will yield time to Mr. Joffe in a second, 
but I will say that I don't think that we will be able to stop 
the Conficker authors from sending updates. I do, however, 
think we will always be able to detect the Conficker-infected 
hosts. The Conficker authors are doing a lot to try to defend 
themselves from being found and caught.
    The place where I think we have a sustainable advantage is 
it appears no matter what they do, we can always find them so 
we can determine we need to clear them.
    Mr. Weiner. Let me ask you this: This being the new state 
of the art in these things, are other hackers and other 
troublemakers able to look at the Conficker virus and say, huh, 
that is a cool way or a vexing way or a troublesome way for us 
to do our business in the future? Is there now out in the world 
this new model which is going to mean that the cat and mouse 
game is going to extend to other hackers who are going to use 
the same device?
    Mr. Kaminsky. Honestly, I think that is a fair statement of 
the situation. One person has gone ahead and taken a lot of the 
worst practices, as opposed to best practices. Someone has 
actually demonstrated the worst practices for how you make 
something that doesn't just compromise a network today, but has 
a sustainable advantage, an update advantage. So I do thing 
that we will see more things of that type.
    Mr. Joffe. Mr. Chairman, there is an interesting thing to 
note about Conficker and April 1. Most of the press saw April 1 
as the day when Conficker would suddenly erupt. It was going to 
be like Y2K.
    We knew already that we had been able to disassemble a fair 
amount of the software. We knew that April 1 represented one 
thing only, which was a change in the mechanism that Conficker 
was going to make use of.
    Up until then, as Mr. Kaminsky mentioned, we had been able 
to control, or we thought we had been able to control, the 
spread of it. They changed the mechanism on April 1. But on 
April 7 and April 8, as you pointed out, it went to 
Conficker.E. Conficker.E did two things. The first thing it did 
was it updated Conficker.D to a new mechanism for both 
spreading and communicating.
    The second thing that it did was it enabled the download of 
another piece of software called Waledac, which is another form 
of malicious software. It enabled the downloading and 
installation of that, with some very interesting pieces to it. 
We don't know if the authors of Waledac are the same as the 
authors of Conficker, but it is very clear these are 
businessmen.
    What Conficker seems to have done is downloaded Waledac, 
but done it for 2 weeks only. It is a very interesting process. 
It is almost as if the authors of Conficker rented the use of 
Conficker to the authors of Waledac to download Waledac, and 
after 2 weeks to delete it.
    What we have been able to see from disassembling some of 
it, I think it is on May 3 or May 5, any installations of 
Waledac done by Conficker will be deleted. These people are 
very, very smart.
    One of the things you asked: Don't we know who is behind 
it? Can't we interrupt it? The cryptography that is used in 
authenticating between the controller and these machines is so 
sophisticated; in fact, it didn't exist in the public. The 
particular thing that they are using, which is something called 
MD6, was actually submitted for the NIST competition for the 
new cryptography that will be sort of authorized for the 
government networks in 2013. They had used this 5 weeks after 
the submission from Ron Rivest. They had this in place and were 
using it. It uses a level of cryptography that, as far as we 
know in the private world, there aren't enough computing cycles 
to be able to crack that in any way. It is being used to 
authenticate the updates.
    So we can see the software, and we know the machines are 
infected. We can disinfect machines with a lot of effort. But 
what we cannot do is something people have asked: Isn't it 
simple to just act as if you are the controller and tell the 
worm to disable itself? The worm doesn't listen to us because 
we don't have the right signature. We don't have that crypto 
capability. They are doing a much better job with cryptography 
than we are.
    Mr. Weiner. This is detective work, but is one of the 
emerging theories that what Conficker is is a delivery device 
for or a distribution device for other spammers or hackers or 
malware delivery? Like we will rent it to you. This is a great 
moving vehicle. For 2 weeks we will let you use it, and we are 
going to rent it to someone else for the next 2 weeks, and this 
is just the way that it gets around.
    Mr. Kaminsky. It is all about monetization. It is about 
what can they do to make money from their millions and millions 
of infected nodes. In this case, they have made money by 
renting it to other people who have their own strategies.
    The one thing I would really like the committee to be aware 
of is there is no reason what Conficker does to one company is 
the same thing that it does to another company. There is no 
reason what Conficker does to one computer is going to be the 
same as what it does to another.
    Mr. Weiner. It is an operating system?
    Mr. Kaminsky. It pretty much is. It is a remote-control 
mechanism, and you can make an individual host--one host do one 
thing and another do another. If that is the best way you can 
make money, go right ahead.
    Mr. Weiner. I want to touch on one or two more potential 
horrors of the future, if not the present. One is the 
proliferation of mobile computing devices, cellular devices and 
wireless devices. Is there a reason why we haven't seen--and 
maybe we have, but not in the same highly publicized way--the 
wide-scale hacking of those devices? More computing is now 
going there. More communications are now going to handheld 
devices. Is this the next frontier of cyberwarfare? Have the 
cybersecurity threats already begun there? Are there reasons 
why it is less able to do because the technology is not as 
sophisticated as the network? Tell me if there is reason to 
believe that could be a vulnerability of the future.
    Mr. Kaminsky. Mobile phones have become operating systems. 
They are quite a bit more complex than the computers we were 
using back in the 1990s.
    The reason we have not seen attacks against them in 
significant count thus far is not because they are more secure. 
Any engineer who has actually taken a look I do not want to say 
has run away screaming, but has certainly found themselves 
concerned.
    The bad guys figure things out, but not immediately. We are 
basically enjoying something of a time lag in between when 
there is awareness of being a problem and when the hackers have 
built up the expertise to be able to exploit it. This will 
change over the years, mainly because at the end of the day, 
all of the things that we have managed to really clean up in 
operating systems and really fix up there, not all of them have 
made it into the mobile phones at this time. That is just the 
reality of things.
    Mr. Weiner. Mr. Clinton, do you see the sense of the 
infrastructure limitations and the infrastructure 
vulnerabilities have been addressed? And I guess one reason it 
would be easier to protect is there is a finite number of 
wireless carriers with a finite number of technological pinch 
points.
    Does it seem like the industry on the wireless side has 
taken these best practices and have done what you described as 
the need that 80 or 90 percent of the attacks can be protected 
if you make best practices?
    Mr. Clinton. I really don't know if I can say that about 
the wireless industry; although generally, the major carriers 
do a pretty good job.
    The core problem, though, as I understand it, not to delve 
too much in areas that Mr. Joffe and Mr. Kaminsky can answer 
better, the Internet is really inherently insecure. The core 
protocols that the Internet was built on were built 35 years 
ago. Nobody was thinking about security. They are pretty much 
completely insecure at their core, which is why we have a patch 
system to solve these problems. As long as we are using these 
core protocols, whichare basically the same protocols we are 
using on the mobile systems now, they are going to be insecure, 
too.
    The only thing that I would add here is, I think we need to 
be careful by focusing just on kind of the high-profile issues 
like Conficker. I mean, I do a lot of speeches on this and 
sometimes go out and people say, I used to hear a lot about 
what you do. There was the Love Bug and Blaster; I don't hear 
about those thing, Conficker notwithstanding. I guess you guys 
solved that.
    Of course, that is not the case at all. We have simply 
moved largely from an era--an era, 5, 10 years ago--5 years 
ago, where the hackers were focused on large-scale public 
demonstrations of their ability, to an era where we are really 
focused on designer malware, and the goal is not to show what 
you can do, it is to steal money.
    So we are really not sure how much stuff is out there. A 
lot of the problem with extortion is people are simply buying 
silence.
    I would caution against just thinking, if we can solve 
Conficker kinds of things, we have solved this. I think it is 
harder than that.
    Mr. Kaminsky. I wanted to clarify. There is at least one 
mobile platform which has been paranoid for years and years, 
and I can say this because I know the years. The BlackBerry 
Research in Motion guys have worked for as long as I have known 
them to build a secure mobile platform. At least in that case, 
I can say people have looked at it, and their stuff is pretty 
good.
    In fact, a lot of people kind of shrugged their shoulders 
at the "ObamaBerry" controversy. It is not like President Obama 
is the first person to ever be putting sensitive information 
into their BlackBerry.
    Mr. Weiner. Mr. Kaminsky, you don't do any consulting work 
for BlackBerry, do you?
    Mr. Kaminsky. No.
    Mr. Weiner. I just wanted to make sure that I didn't get 
some Apple lobbyist complaining or anything.
    Mr. Joffe.
    Mr. Joffe. One thing to remember is that mobile devices 
used to be telephones, but they are now becoming much more of a 
computing platform. We go after Microsoft a lot in terms of 
their operating system. That is not necessarily where the 
problem is. It is the applications that people download and use 
on those devices.
    We are beginning to see a move towards mobile payments, for 
example. One of the things that you have to be very careful 
about is when we look at the mobile payment applications, they 
sit on top of the operating system, on top of the phone. They 
have to be looked at on their own because you can have the most 
secure platform you want. If you have an application that 
enables problems, it doesn't matter how good the operating 
system, the application itself would be insecure. That is where 
the problems, most of the problems that we have seen today, are 
coming from.
    Don't think of it as a wireless device. It is nothing more 
than an existing computer, and it is just as vulnerable and has 
to be looked at very carefully in the same way we do on regular 
computing devices.
    Mr. Weiner. Finally, on the challenges that we face, how do 
we know that a router manufactured in China doesn't have some 
listening ability built into it for Chinese Government 
officials? Or some computer chip that is made doesn't have a 
circuit switch that permits anything on that computer to be, 
with the right command, listened to or going to the right 
Website? How do we know that hacking in is not the issue, that 
building in might not be the issue?
    Mr. Clinton, you are nodding the most, so why don't you 
start.
    Mr. Clinton. We are very concerned with this problem. My 
organization started 3 years ago in conjunction with our 
partners, Carnegie Mellon, to take a look at exactly this 
problem. And basically, to put it in short form, I think we 
have come to the opinion that we need to learn how to build 
secure systems, understanding that some of the parts may be 
insecure.
    We do think, and we have amended our statement, a fairly 
extensive additional piece of work that we did with Carnegie 
Mellon and Scott Borg at the Cyber Consequences Unit to move 
towards developing a framework so that we can put in an 
extended system of protections so that we can secure the IT 
supply chain, which is inherently globalized, is going to stay 
inherently globalized, and is going to be built in part by 
people who we don't know. They don't have a Social Security 
system in India. But we can put in, we think, by using a fairly 
systemic framework that we have tried to begin the articulation 
from in some of our additional comments, which we also supplied 
to Ms. Hathaway, a system where we can again change the 
economics so that we can make it in our best interest and our 
suppliers' best interest to understand that it is in their best 
interest to keep these systems truly supplied in a secure 
fashion, rather than allow them to be counterfeited or in some 
way hurt.
    The one thing that I would say in addition to this is that 
we try to take a risk-management approach to this. So while we 
are very secure, we are very worried about the supply chain. 
This is a problem that is generally not a big problem, we 
think, for industry. The reason is it is usually easier and 
less costly if you are going to attack Bank of America to 
attack it through software or one of these traditional hacks. 
It is much harder and more difficult to do it through a supply-
chain attack by putting something in the computer.
    However, from the government's perspective, this is an 
extremely serious problem, because if a weapons system could be 
infected through a manufactured attack, you can't detect it. 
You don't get rid of it when the software is there. And the 
chances--it is absolutely possible to put in a back door or a 
Trojan horse, a logic bomb that will stay there and not be 
activated until we launch a weapons system, and then the 
weapons system could either not work or turn around and go 
against us. So it is a very serious problem.
    And if you are a nation state, and you are thinking of 
weapons of mass destruction, then a supply-chain attack could 
become very attractive to you, much more attractive to you than 
if you are just trying to steal credit card information.
    Mr. Weiner. Let me pick up on something you said. It is 
easier not to do it on the supply chain. If you are a nation, 
if you are China, and you have a lot of manufacturing going on 
within your boundaries, and you have the ability to manipulate 
branch managers, could it also be a source for our 
counterefforts? One thing that we have that the rest of the 
world envies, we have the technological expertise, and we have 
a lot of the companies that manufacture these parts are within 
our walls. A lot of the chip manufacturers are U.S.-based 
companies. Why couldn't we install things on these chips to 
make them--if we want to throw a switch, as we tiptoe into Mr. 
Nojeim's area of expertise, why don't we install a switch that 
goes into these routers that lets us shut them down if they 
fall into the hands of Iran or a foreign power? I mean, it 
seems to me that it might actually be in the interest of the 
Chinese to be doing it to us and the interest of us to be doing 
it to the Chinese, no?
    Mr. Clinton. On the weapons system, I think this is a big 
problem. In terms of the economic sort of stuff that we have 
been discussing here, the personal identifiable information 
sort of thing, one of the things that is a good thing about the 
globalized economy is that it is, frankly, not in China's 
interest to have lack of confidence on the Internet or to 
undermine the American economy. They are big investors in the 
American economy, so it is probably not so much in their 
interest to do that.
    But if you think of it in a military sense, I would not be 
shocked to hear that we have people who are thinking about 
doing it offensively from our point of view. And certainly the 
expectation is that some of our opponents are thinking about 
doing it from their point of view, and that is why this kind of 
framework that we have suggested in our written testimony needs 
to be developed a lot more.
    Mr. Weiner. Mr. Kaminsky, if I were to manufacture a router 
that had a piece of code or something built into it, and you 
had enough time to look at it, could you find it?
    Mr. Kaminsky. It would be difficult. The reality is attacks 
at the level where the actual hardware has been corrupted in 
the first place are very, very difficult to find. The 
researchers that Mr. Clinton spoke about at Carnegie Mellon 
University have done some preliminary work in attempting to 
detect these actual back doors, but at the level where it is 
baked into the circuitry, it is actually very difficult to 
find.
    What is not difficult, however, is if you are the one doing 
the baking, you can pretty much make hardware that no matter 
what software is run on top, you can ultimately get an exploit 
into that operating system. So whatever operating system, 
whatever software, if you control the underlying hardware, you 
control the underlying logic, you can make a back door, and you 
will control that system.
    Although it is true that we have a lot of very creative 
companies in the United States, the reality is a lot of the 
development of both hardware and indeed secure software happens 
outside the United States: China, India, Taiwan and so on. That 
is just the reality of the market as it is today.
    Mr. Weiner. That sounds like a pretty frightening 
conclusion, so let's start to end the conversation today 
talking about the conflict that is going on now within the 
Obama administration about who should be in charge of this and 
what they should do.
    It seems to me, Mr. Nojeim, that there does seem to be 
sufficient risk that we do want to give the tools to government 
to be able to--if the risk grows too big too fast to critical 
infrastructure, to our country, to a weapons system that might 
be used against us, there needs to be some check on the basic 
ethos of the Internet being a completely democratized, fairly 
loose-knit organization. Some have taken that argument to the 
extension of saying, all right, the supervisory/governing 
agency that should be at the top of the organizational chart of 
cybersecurity should be an intelligence or defense agency. What 
do you say?
    Mr. Nojeim. We don't think that is the right approach, and 
there are a few reasons for that. And the Agency we are talking 
about is the National Security Agency, for the most part.
    NSA has a role, I think, in protecting classified 
government systems, military systems. But it is not necessarily 
the case, and it probably isn't the case, that the NSA would be 
the best entity to protect a private system that is not in the 
classified realm, it is not in the defense realm.
    Let me illustrate it this way. If I am Mr. Kaminsky, and I 
am working for Microsoft, I might know my systems better than 
anyone else would know them. The fact that the NSA has 
experience in penetrating other systems of foreign countries 
abroad doesn't necessarily make it the best entity to protect 
systems. Also, the NSA, it wears two hats. Those different 
roles tug in opposite directions in the cybersecurity area.
    One, it is charged with breaking the codes of foreign 
governments and penetrating their systems, finding 
vulnerabilities. But if it was given a lead role in 
cybersecurity over private systems, that role would conflict 
with the need to patch up systems that are being used in the 
United States. Sometimes it is exactly the same system.
    So if NSA finds a vulnerability abroad--
    Mr. Weiner. Meaning that you wouldn't want to tip off a 
foreign power that you have spotted this weakness because it 
might exist in our own?
    Mr. Nojeim. Because they wear these two hats of finding the 
vulnerabilities, and then wanting to plug vulnerabilities in 
the same software that is on our systems, I think that is a 
very difficult thing for them to handle, and it probably makes 
them an inappropriate leader.
    I should add that the head of the NSA at the RSA conference 
just a couple of weeks ago said, we don't want this lead role. 
We don't want to be doing that.
    Mr. Weiner. I think there was some element of kabuki dance 
going on there.
    I think we now understand that one of the reasons that this 
60-day review has dragged on, and I don't think there has been 
an appointment of a chief technology officer, one of the 
reasons is that they are legitimately hung up on this. Any 
advice? Is there a need to have all of these disparate agencies 
that deal with cybersecurity? Is there a need to have them 
under one umbrella? There does seem to be consensus among folks 
who have looked at this that there is too much interagency back 
and forth, elbow throwing, and planning on who is responsible 
for what that doesn't lend itself well to a true emergency 
response.
    Do you have any advice to offer the President, Mr. Clinton?
    Mr. Clinton. First of all, we generally stay away from this 
because, being a private-sector organization, we are always 
telling government, don't micromanage us. So we generally try 
to stay away from offering advice.
    One of my board members would answer this metaphorically by 
saying if the cybersystem were a soldier on the battlefield 
with an open wound, and the Intelligence Community were the 
doctor, the Intelligence Community's approach to that would be 
to look into that wound and say, my, isn't that interesting, as 
opposed to, fix it. And we need people who are going to fix it, 
not try to exploit the vulnerability.
    The one piece of advice that we would offer to the 
administration is regardless of whether you locate this person 
at the Department of Commerce, such as the Senate bill would 
suggest, or DHS, where it is supposedly now, or NSA, the 
important thing is not where it sits, but that you do have an 
individual or an organization, it could be a group of 
individuals, who have actual control from the government's 
perspective. That individual needs to have budgetary authority 
and the ability to oversee the other organizations. It can't be 
just kind of a figurehead position.
    So it is less important to us where that person sits, 
although we tend to think it should be somewhere within the 
White House structure, but that person actually have the 
ability to do the coordination. And we also think that 
government's first role here is to get government's house in 
order rather than try to figure out how they are going to deal 
with the private sector, which is why I think the model we have 
suggested, which is a collaborative model, is something that we 
would ask the committee to take a look at.
    Mr. Kaminsky. There is a scenario that I think has been 
useful for explaining to people just the scale of problem that 
we have.
    Consider a situation where a major top 10 Website is broken 
into, not directly but through their ad network. The 
advertising network is made to deliver an exploit for the Adobe 
Acrobat document software. The documents are loaded. They cause 
code execution on anyone who goes to that Web page. The code 
loads up a botnet. That botnet is used to do two things. First, 
it sends banking credentials from the infected host to the 
attacker. Second, it floods various Websites on the Internet 
with malicious traffic in a desire to force an extortionary 
attempt to be successful.
    Whose fault is this? Is this the fault of the top 10 
Website? Is it the fault of the ad network? Is it the fault of 
Adobe? Or is it the fault of Microsoft for writing the 
operating system, or the user for using the operating system? 
Is it the fault of the bank for having credentials at all? Is 
it the fault of the people who pay extortionary prices?
    The fault is the bad guy. The bad guy caused this, and 
everybody else has a natural alliance against that bad guy.
    The problems that we are trying to solve are smeared across 
company boundaries, individual boundaries; and, indeed, are 
smeared across the public-private boundary. I agree with what 
has been said earlier. I don't think that I am qualified to 
know who or where there should be authority, but there actually 
does need to be a coordinating authority across all of these 
disparate actors to guide the public-private partnership 
towards actually fixing the scale of problems that we face 
today.
    Mr. Weiner. Mr. Joffe.
    Mr. Joffe. Thank you, Mr. Chairman.
    From my point of view, I, like Dan, come from the geek side 
of the house, and we don't play in politics and are down in the 
trenches. The only way we are going to solve this is by, first 
of all, acknowledging there is an issue, which is exactly what 
the White House has done with the 60-day review process, the 
other hearings that have been heard on the Hill, and this 
hearing. The fact that we are having this kind of hearing, this 
is remarkable to us in the technical world. Eight, nine years 
ago, none of us would have been seen up here unless we were 
involved in something else. So it is really important that 
there are hearings and we acknowledge there is a problem, and 
acknowledge that every one of us has a part to play in it: 
private industry, the government.
    At the end of the day, someone has to make a decision when 
there is a problem. But what we really have to do is make sure 
that we get together and talk about the problems and recognize 
them. As Dan said, we are all united against an enemy. The 
enemy may not be the bad guy who is trying to steal 
credentials. Nation states also represent problems for us. 
Nation state threats are just as large and just as damaging, if 
not more damaging. There are some organizations that don't care 
about the financial impact or being able to download plans for 
the Joint Strike Fighter; they want to seek the complete 
overthrow and maybe the complete destruction of the United 
States. And that matters as well.
    We have to all work together with all of the stakeholders, 
folks on the technical side, folks on the policy side, people 
on the business side, to try and be able to recognize the 
problems, be able to find solutions, fund the solutions and 
build the solutions. As long as we are doing that, I think on 
the technical side we are happy. Who runs it doesn't really 
matter as long as it works. If it doesn't work, I am sure in a 
couple of years' times, there will be a new leader.
    Mr. Weiner. Mr. Nojeim, it does matter, doesn't it?
    Mr. Nojeim. I think it does ultimately, because where the 
work is located will have an impact on industry participation. 
And from our perspective, from what we have seen talking to key 
players in the industry is that one of the things that concerns 
them is that the program hasn't been transparent enough. If 
they share information, they don't know how it will be used and 
where it goes next. So there is this natural tendency to hold 
back and to think about what happens next.
    Where the program is located, where the operations are 
located impacts on transparency. And so far transparency has 
been lacking.
    From our view, our perspective, it makes sense to have a 
coordinating body at the White House to do some policy work, to 
set budgets and do that kind of high-level thinking about this. 
But operations, they need to be at a lower level, I think. And 
DHS is a natural place for a lot of this work.
    Mr. Weiner. Perhaps. I think there is the concern that this 
is generally part of a larger conversation about how you foster 
all that comes from the Internet, good and bad; how you make 
sure. As I said in my opening remarks, we have resisted the 
temptation to be heavy-handed plenty of times before. As the 
Internet emerged, and there were dirty pictures and hateful 
speech, these other types of things, sometimes we have gotten 
it right, and I think we got it wrong with gambling. I think to 
some degree we lurch back and forth, but we have basically 
defaulted to a position where we have tried to keep our hands 
off to the greatest extent possible.
    I think the vulnerability is that you want to keep hands 
off, and you don't want to create a situation where you give 
too much authority to an agency that is used to collecting 
information and not used to disseminating it, but you want to 
have a situation where we acknowledge that this does represent 
a bona fide natural security threat. To whom do you give the 
authority to do what? Do you give the President the authority 
to have an on/off switch?
    You referred to this in your testimony.
    Do you give the President or the NSA or the Commerce 
Department the authority to go ahead and start experimenting 
with a second tier of the Internet? These are things that we 
are going to use to plug in important things like the electric 
grid or our military secrets or the like.
    I think one of the things that you four gentlemen have been 
helpful in shedding light on is that we really are going to 
have more of these headlines. We do need to be cautious. We go 
through our cycles in American civic life where we see a couple 
people bitten by sharks, and suddenly there is an explosion of 
shark bites going on. There have been tens of thousands of 
attacks that go on. Recently the New York City Police 
Department said that they get attacked about 70,000 times a 
day. And we have to make sure that we don't allow the tail to 
wag the dog here. We want to be thoughtful about it. I think 
your testimony has been instructive.
    Also, I think it is pretty clear, whether it be the 
Commerce Department or some role for the FCC, we here on the 
Commerce Committee are committed and frankly have a history of 
dealing with these issues, looking at not only the security 
side, but the commerce side and the energy side. If you look at 
the things that we have talked about today, the Internet 
itself, interstate commerce, energy issues, commerce issues and 
the like, I think that this is probably going to be the 
committee where a lot of these things are going to get 
discussed even further.
    Before I recess, I just want to offer some thanks to people 
who have helped in addition to those of you who have testified. 
The record will remain open. If there is anything you would 
like to submit in written form, any questions and answers you 
would like to submit for the record, we will certainly be happy 
to take it.
    I just want to thank Tiffany Guarascio of my staff; Amy 
Levine, Tim Powderly, Roger Sherman and Greg Guice of the 
committee staff; our friends on the Minority side; and all of 
my colleagues, as well as the Chairman Mr. Boucher, who has 
been very active and involved on many of these issues.
    I thank you all for your testimony. This adjourns the 
hearing.
    [Whereupon, at 2:41 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
